Inspections Report T.O.C.
DEPARTMENT OF JUSTICE
OFFICE OF THE INSPECTOR GENERAL
INSPECTIONS DIVISION
IMMIGRATION AND NATURALIZATION SERVICE
EFFORTS TO COMBAT HARBORING AND EMPLOYING
ILLEGAL ALIENS IN SWEATSHOPS
May 1996
Report Number I-96-08
TABLE OF CONTENTS
Executive Digest
Introduction
Objectives
Scope and Methodology
Background
Results of the
Inspection
Illegal Aliens
Working in Sweatshops
Obstacles to INS
Sweatshop-Related Enforcement
Intelligence
Employer Sanctions
Enforcement
Collection of Civil
Fines
Removing Illegal
Aliens
INS Can Play a Leadership
Role in a Global Approach to Sweatshop Enforcement
Conclusions and
Recommendations
Notes
APPENDIX I - Management's Response to Draft Report - NOT
INCLUDED IN THIS HYPERTEXT VERSION.
APPENDIX II - Office of the Inspector General's Analysis of
Management's Response - NOT INCLUDED IN THIS HYPERTEXT VERSION.
EXECUTIVE DIGEST
Sweatshops present a law enforcement problem that cuts across
agency jurisdictional lines. Illegal aliens comprise a
substantial portion of the sweatshop work force. The employer
sanctions provisions of the Immigration Reform and Control Act
make it unlawful for employers to knowingly hire aliens who are
not authorized to work in the U.S. Sweatshop industries are
particularly prone to violations of immigration laws because they
offer low-skilled, low-wage jobs that are often viewed as
undesirable by U.S. citizens and aliens authorized to work in the
U.S.
The Immigration and Naturalization Service (INS) faces
significant obstacles to effective enforcement of immigration law
in sweatshops. INS has limited intelligence on sweatshop
operations and their links to alien-smuggling organizations. INS
employer sanctions units have the resources to investigate only a
small percentage of the leads they receive concerning the
employment of illegal aliens. The U.S. Department of Labor (DOL)
completes employer sanctions inspections during its wage and hour
investigations. DOL inspections have generated few useful
investigative leads for INS. Furthermore, INS' relationship with
DOL and state labor agencies in the field has been troubled by
the latter agencies' sense of conflicting missions and their
reluctance to cooperate in operations and intelligence sharing.
INS employer sanctions enforcement has relied heavily on civil
fines. Civil enforcement may be a less effective deterrent for
sweatshop employers than for the typical mainstream employer.
Sweatshops often have a brief and clandestine existence.
Sweatshop operators may prevent the collection of civil fines by
quickly moving their operations, dissolving or simply discarding
shell corporations, and opening up in a new location under a new
name. The deterrent effect of civil fines on sweatshop operators
may be vitiated by collection difficulties and INS' failure to
track delinquent collections cases.
Other obstacles to effective sweatshop enforcement include
INS' inability to remove most aliens found working illegally in
the U.S. and the proliferation of inexpensive fraudulent
documents. INS' detention and removal efforts in the interior are
concentrated primarily on criminal aliens. INS removals of
non-criminal aliens arrested in the worksite are so few as to
have a statistically insignificant effect on the remaining work
force. Counterfeit employment authorization documents also are
easily and cheaply obtained. Sweatshop employers may be able to
circumvent the employer sanctions provisions by employing
unauthorized aliens who have obtained fraudulent documents.
INS is participating in the Deputy Attorney General's
Interagency Working Group on Sweatshop Strategy Coordination. INS
participation in this group could be a major component of an
effective multi-agency battle against sweatshops. Some INS field
units have made important strides in using interagency task
forces and innovative enforcement approaches to
enforceimmigration law in sweatshops and the underground economy.
However, an increased INS emphasis on criminal investigations
targeted against sweatshops, including using felony
anti-smuggling laws to the maximum extent, could significantly
increase the effectiveness of interagency sweatshop enforcement
efforts.
#####